WAIVER

SUPREME COURT OF THE UNITED STATES

No. 90.1546
Bellflower Unified School District Fernando Lua, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Po —

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO 1am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Date: May 7, 2021

 

(Type or print)Name f ;
Michael T. Kirkpatrick

© mr. O Ms. O mrs. O Miss
iim Public Citizen Litigation Group
Sarees 1600 20th Street NW
City & State Washington, DC Zp 20009
Phone Email

(202) 588-7728 mkirkpatrick@citizen.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Richard Dale Brady
. Counsel of Record
cc: Law Offices of Eric Bathen
650 Town Center Drive, Suite 1200
Costa Mesa, CA 92626
